                

                     U.S. ENVIRONMENTAL PROTECTION AGENCY 
                
                     OFFICE OF INSPECTOR GENERAL
 




                     Opportunities for EPA-Wide
                     Improvements Identified
                     During Review of a
                     Regional Time and
                     Materials Contract
                     Report No. 13-P-0209                    April 4, 2013




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors: 	                             Eric Lewis
                                                   Khadija Walker
                                                   Christine Baughman
                                                   Rodney Rice
                                                   Nyquana Manning




Abbreviations

A&E                  Architect and Engineering
CMM                  Contracts Management Manual
CO                   Contracting Officer
COR                  Contracting Officer Representative
EPA                  U.S. Environmental Protection Agency
EPAAR                EPA Acquisition Regulations
FAR                  Federal Acquisition Regulations
IGCE                 Independent Government Cost Estimate
OAM                  Office of Acquisition Management
OIG                  Office of Inspector General
OMB                  Office of Management and Budget
SOW                  Statement of Work


Cover photo:	    The facility to treat sediment dredged from the Spring Creek Arm of the
                 Keswick Reservoir at the Iron Mountain Mine Superfund Site, Shasta County,
                 California. It was constructed under task order 45 and operated under task
                 order 50 of contract EPS90804. (Photo courtesy of CH2M Hill, Inc.)




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  e-mail:    OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue, NW
  fax:       202-566-2599                                       Mailcode 2431T
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                                      13-P-0209
                                                                                                                  April 4, 2013
                        Office of Inspector General


                        At a Glance
Why We Did This Review                   Opportunities for EPA-Wide Improvements Identified
The purpose of this review was to
                                         During Review of a Regional Time and Materials Contract
determine whether, for time and
materials contracts, the U.S.             What We Found
Environmental Protection Agency
(EPA) has a process to verify that       EPA Region 9 did not require its contracting personnel to verify that personnel for
contractor personnel met the             the contractor had the qualifications necessary to execute contract EPS90804. This
qualifications specified in the          may be an EPA-wide problem in managing time and materials contracts. In
contract and received the level of       addition, Region 9 contracting personnel did not consistently:
services for which it paid. We
focused our review on remedial                Update the statement of work that identifies the work it expects the
action contract EPS90804 awarded               contractor to perform so EPA can use the statement of work to monitor
by EPA Region 9. The government                performance.
should only use a time and                    Document the review of the qualifications of contractor personnel performing
materials contract when it cannot              the contract tasks.
accurately estimate either the                Document the reviews of monthly progress, contractor performance, and
extent or duration of the work, or             quality of deliverables.
anticipate costs with any                     Become familiar with the contract.
reasonable degree of confidence.              Issue memorandums appointing contracting officer representatives (CORs).
Contract EPS90804 supports EPA
responses to releases of hazardous       These practices put EPA at risk of not receiving the level or quality of service for
substances and counter-terrorism.        which it paid. As the services ordered under the contract were to restore the
Under this contract, the region pays     environment after the releases of hazardous substances, services that do not meet
the contractor a fixed hourly rate for   the standards EPA intended under the contract could increase risk that human
labor plus other direct costs.           health and the environment were not adequately protected.
A Region 9 contracting officer and
contracting officer representatives      Additionally, EPA Region 9 personnel negotiated a prohibited profit clause in the
monitor the contractor’s activity.       contract, resulting in EPA improperly paying the contractor over $1.5 million in
                                         additional profit.
This report addresses the
following EPA Goal or
Cross-Cutting Strategy:                   Recommendations and Planned Agency Corrective Actions

 Strengthening EPA's Workforce          We recommend that the Regional Administrator for Region 9 direct the contracting
  and Capabilities                       officer for EPS90804 to require CORs to document oversight according to
                                         regulations and policies, which he agreed to do. We also recommend that the
                                         Regional Administrator recover funds for the prohibited clause, as well as
For further information, contact         determine if the clause is in other contracts and recover funds for those contracts.
our Office of Congressional and
                                         Finally, we recommend that the Assistant Administrator for Administration and
Public Affairs at (202) 566-2391.
                                         Resources Management enforce the requirement for CORs to ensure contract staff
The full report is at:                   meet the qualifications, and review EPA’s practices for paying contractors who
www.epa.gov/oig/reports/2013/            perform similar activities. For the latter recommendations, the EPA officials
20130404-13-P-0209.pdf                   provided alternative corrective action without completion dates or they disagreed.
                                         EPA must provide a corrective action plan in its final response.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                              THE INSPECTOR GENERAL




                                         April 4, 2013

MEMORANDUM


SUBJECT:	 Opportunities for EPA-Wide Improvements Identified During Review of a
          Regional Time and Materials Contract
          Report No. 13-P-0209


FROM:         Arthur A. Elkins Jr. 



TO:	          Jared Blumenfeld, Regional Administrator
              Region 9

              Craig E. Hooks, Assistant Administrator
              Office of Administration and Resources Management


This is a report on the subject evaluation conducted by the Office of Inspector General (OIG) of
the U.S. Environmental Protection Agency (EPA). This report contains findings that describe the
problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
This report contains the intended corrective actions and planned completion date for one
recommendation. This recommendation is considered resolved. The report also contains four
recommendations that the Agency and OIG are in disagreement and are considered unresolved.

Action Required

In accordance with EPA Manual 2750, resolution should begin immediately upon issuance of the
report. We are requesting a meeting between the Region 9 Administrator, the Assistant
Administrator for Administration Resources Management, and the Assistant Inspector General
for Program Evaluation, to start the resolution process and attempt to obtain resolution.
If resolution is still not reached with 30 days, the Region 9 Administrator and the Assistant
Administrator for Administration and Resources Management are required to complete and
submit the dispute resolution request to the Chief Financial Officer to continue the resolution
process. We have no objections to the further release of this report to the public. We will post
this report to our website at http://www.epa.gov/oig.
If you or your staff have any questions regarding this report, please contact
Carolyn Copper, Assistant Inspector General for Program Evaluation, at (202) 566-0829
or copper.carolyn@epa.gov; or Eric Lewis, Product Line Director, Special Reviews, at
(202) 566-2664 or lewis.eric@epa.gov.
Opportunities for EPA-Wide Improvements Identified                                                                           13-P-0209
During Review of a Regional Time and Materials Contract


                                   Table of Contents 


Chapters
   1	    Introduction .......................................................................................................       1
	

                 Purpose .......................................................................................................    1

                 Background .................................................................................................       1

                 Scope and Methodology..............................................................................                2

                 Prior Evaluation/Audit Coverage .................................................................                  3


   2	    Region 9 Should Improve Documenting Contract Oversight 

         Activities and Requirements .............................................................................                  4
	

                 SOW Is the Basis for Work Performed ........................................................                       4

                 Region 9 Did Not Always Modify the SOW .................................................                           5

                 Region 9 CORs Did Not Always Review or Document Review of 

                      Qualifications of Contractor Personnel Who Billed EPA....................                                     7

                 Region 9 Task Order CORs Did Not Always Document 

                      Reviews of Monthly Progress, Contractor Performance, 

                      and Quality of Deliverables ...............................................................                  10 

                 Region 9 Did Not Always Comply With Directives or Best Practices, or 

                      Consistently Issue COR Appointment Memorandums ......................                                        13 

                 Conclusion...................................................................................................     14 

                 Recommendations .....................................................................................             14 

                 Agency Comments and OIG Evaluation ......................................................                         15 


   3	    Contract Included a Prohibited Payment Clause ............................................                                16
	

                 Paying Profit on Subcontracts Is Prohibited ................................................                      16 

                 Contract Inappropriately Allows Paying Profit on Subcontracts ..................                                  16 

                 EPA Disagrees That the Clause Was Inappropriate or Duplicative.............                                       18 

                 Conclusion………………………....................................................................                           20 

                 Recommendations ......................................................................................            20 

                 Agency Comments and OIG Evaluation .....................................................                          21 


   Status of Recommendations and Potential Monetary Benefits ..............................                                        22
	



Appendices
   A	    Process for Issuing a Task Order Under Contract EPS90804........................                                          23
	

   B	    Cost Proposal Evaluation Checklist .................................................................                      24
	

   C	    Task Order Cost/Hours Verification Form .......................................................                           26
	

                                                          -continued-
Opportunities for EPA-Wide Improvements Identified                                                                          13-P-0209
During Review of a Regional Time and Materials Contract




   D     Office of Acquisition Management Comments to Recommendations ..........                                                  27 


   E     Region 9 Comments to Report Recommendations ........................................                                     29
	

   F     Region 9 Technical Comments and OIG Evaluation ......................................                                    34 


   G     Distribution .........................................................................................................   40
	
                                  Chapter 1

                                   Introduction
Purpose
            The purpose of this review was to determine whether, for time and materials
            contracts, the U.S. Environmental Protection Agency (EPA): (1) had a process to
            verify that contractor personnel met the qualifications specified in the contract,
            and (2) received the services for which it paid. We focused our review on
            remedial action contract EPS90804.

Background
            EPA Region 9 awarded remedial action contract EPS90804 to CH2M Hill, Inc.,
            on September 24, 2008. Under the contract, the contractor provides professional
            architect/engineer, technical, and management services to the EPA to support
            activities under the Comprehensive Environmental Response, Compensation and
            Liability Act of 1980. This contract is intended to address and/or mitigate
            endangerment to public health, welfare, or the environment; and to support states
            and communities in preparing for responses to releases of hazardous substances.
            The base performance period was 3 years, with options for up to 7 more years.
            EPA awarded the first option period, extending the contract to September 23,
            2013. The contract ceiling was not to exceed $116,250,000.

            Contract EPS90804 is a fixed rate indefinite delivery/indefinite quantity award
            term contract. The contract provides for the government to order work through
            task orders, including fixed rate time and materials type task orders. A time and
            materials task order is a vehicle for acquiring services based on direct labor hours,
            at specified fixed hourly rates, and actual cost for materials. Fixed hourly rate
            includes wages, overhead, general and administrative expenses, and profit. This
            type of pricing may be used only when it is not possible at the time of placing the
            contract to accurately estimate the extent or duration of the work, or anticipate
            costs with any reasonable degree of confidence. Such a pricing method provides
            no incentive to the contractor for cost control or labor efficiency. Thus, EPA must
            overcome the disadvantages of contracts with fixed rate/time and materials type
            pricing arrangements by having enough properly trained staff to adequately
            perform and document reviews of invoices, monthly progress, contractor
            performance, and daily oversight to provide reasonable assurance that the
            contractor uses efficient methods and effective cost controls. In 2012, in response
            to the Administration’s Campaigns to Cut Waste, and OMB’s memo Reduced
            Contract Spending for Management Support Services, EPA released guidance
            which encouraged the agency to move from “high-risk” contracts, which include
            time and materials contracts, to more fixed price contracts.


13-P-0209                                                                                           1
            Region 9 provided for multiple levels of monitoring the work. To help contracting
            officers (COs) manage the contract, COs used a memorandum to appoint contracting
            officer representatives (CORs) in accordance with Federal Acquisition Regulation
            (FAR) at 48 CFR Section 1.604. This included a contract-level COR as well as task
            order CORs.

            The contracting officer issues task orders for government-required work to be
            performed. For each task order, the task order COR drafts the statement of work
            (SOW) to identify the work EPA wants the contractor to perform, as well as the
            independent government cost estimate (IGCE) on how much the work might cost.
            Once the task order is issued, it is the responsibility of the task order COR to
            monitor the contractor’s performance to ensure that EPA obtains a quality
            product, on time, and within cost. Monitoring includes giving technical direction,
            reviewing deliverables, conducting meetings, reviewing monthly progress reports
            and invoices, and evaluating contractor performance.

Scope and Methodology
            We conducted our work from January to December 2012 in accordance with
            generally accepted government auditing standards issued by the Comptroller
            General of the United States. Those standards require that we plan and perform
            the review to obtain sufficient, appropriate evidence to provide a reasonable basis
            for our findings and conclusions based on our objectives. We believe that the
            evidence obtained provides a reasonable basis for our findings and conclusions
            based on our review objectives.

            We selected contract EPS90804 because it had the largest dollar value of regional
            contracts that included time and materials task orders, based on the Office of
            Acquisition Management’s (OAM’s) active contracts list as of June 2011. When we
            started work, the CO had issued 64 task orders funded for $97.8 million. All of these
            task orders were time and materials. We selected a sample of 12 out of the 64 task
            orders (18 percent), which represented 63 percent of the contract dollars (table 1).

            Table 1: Task orders reviewed
             Number            Site name          Date issued       Amount funded
                7       Frontier Fertilizer       12-29-2008          $9,612,753.00
                8       Frontier Fertilizer       12-30-2008           1,960,000.00
               17       Sulphur Bank              12-30-2008           1,897,613.00
               23       B.F. Goodrich             12-31-2008           4,130,475.00
               40       Iron Mountain Mine        02-20-2009             512,312.67
               45       Iron Mountain Mine        04-13-2009          20,692,769.33
               49       El Monte                  06-23-2009             900,000.00
               50       Iron Mountain Mine        06-23-2009          18,560,340.00
               51       Lava Cap                  07-23-2009             381,387.00
               53       Frontier Fertilizer       08-31-2009           2,499,997.43
               55       Ordot Landfill            05-21-2010             149,973.00
               60       Glendale Chromium         09-26-2011             300,000.00
             Total for Task Orders Reviewed                          $61,597,620.43
            Source: OIG analysis



13-P-0209                                                                                         2
            We interviewed the Region 9 staff managing the contract, including the current
            CO; Contract Acquisition Manager, who was the CO who negotiated and signed
            contract EPS90804; the current contract-level COR; the eight Region 9 staff
            serving at the time as task order CORs for the 12 task orders reviewed; and their
            supervisors. We reviewed the supporting documentation for each task order in the
            sample as well as applicable laws, regulations, and guidance documents.

Prior Evaluation/Audit Coverage

            The following Office of Inspector General (OIG) reports addressed issues related
            to the scope of our review

               	 Report No. 09-P-0242, Contractor Invoice Internal Controls Need
                  Improvement, September 23, 2009.
               	 Report No. 10-R-0113, EPA Should Improve Its Contractor Performance
                  Evaluation Process for Contractors Receiving Recovery Act Funds,
                  April 26, 2010.
               	 Report No. 12-P-0320, Policies Needed for Proper Use and Management
                  of Cost-Reimbursement Contracts Based on Duncan Hunter Act, March 6,
                  2012.




13-P-0209                                                                                       3
                                  Chapter 2

        Region 9 Should Improve Documenting 

     Contract Oversight Activities and Requirements 

            EPA Region 9 did not require its contracting personnel to verify that personnel for
            the contractor have the qualifications necessary to execute contract EPS90804.
            This may be an EPA-wide problem in managing time and materials contracts.
            This occurred because EPA did not use an appropriate government surveillance
            plan to review the work of the contractor. Specifically, the lack of contract
            oversight put EPA at risk of not receiving the level or quality of service for which
            it paid. Region 9 contracting personnel did not consistently:

                  Modify the SOW that identifies the work it expects the contractor to
                   perform so that the region can use the SOW to monitor performance.
                  Document the review of the qualifications/résumés of contractor personnel
                   performing the contract tasks.
                  Document the reviews of monthly progress, contractor performance, and
                   quality of deliverables.
                  Become familiar with the contract.
                  Issue memorandums appointing CORs .
            A time and materials-type pricing arrangement provides no profit incentive to the
            contractor for cost control or labor efficiency. Therefore, appropriate government
            surveillance of contractor performance is required to give reasonable assurance
            that efficient methods and effective cost controls are being used. The FAR and
            EPA Acquisition Regulations (EPAAR), as well as other EPA and Office of
            Management and Budget (OMB) guidance, address the need for documentation in
            these situations. Region 9’s inconsistent documentation to support decisions and
            management of this contract poses a risk that it will not receive the level and
            quality of services for which it paid. As the services ordered were to restore the
            environment after the releases of hazardous substances, this risk could endanger
            public health and welfare.

SOW Is the Basis for Work Performed
            According to the February 2009 EPA Contracts Management Manual (CMM),
            Section 11.1, the SOW is one of the main documents in the procurement process,
            from initiation through completion. The SOW:
                  Delineates the tasks that the contractor must perform.
                  Describes essential technical needs or requirements that the contractor
                   must fulfill.
                  Provides the standards that the government will use to determine that the
                   contractor met the contract requirements.


13-P-0209                                                                                          4
            The SOW serves as the basis for performance under the contract. The June 2010
            EPA Guide for Preparing Independent Government Costs Estimates [IGCE] states
            that the SOW provides the foundation to determine the price, performance
            schedule, and deliverables (EPA Guidance 2010, p 8). Contract EPS90804,
            Attachment 1, requires that the contractor perform all activities identified in the
            SOW of the individual task orders.

Region 9 Did Not Always Modify the SOW
            The contract clause H.42(n)1 requires the contractor to develop a work plan to
            achieve the objectives listed in the SOW. However, some task order CORs relied
            on the contractor-prepared work plan to establish government objectives and to
            monitor contractor progress. There were differences between the deliverables in
            the SOW and the work plan prepared by the contractor. This occurred because the
            task order CORs did not always keep notes or track changes to deliverables
            agreed upon in meetings with the contractor and failed to communicate those
            changes to the CO. Region 9 contracting personnel should modify the SOW
            accordingly to show the changes and the rationale for the agreed-upon terms.

            Development of the Work Plan

            The COR prepares a SOW for each task order and related IGCE, and gives the
            documents to the contract-level COR, who gives them to the CO. After any
            needed changes are made, the CO gives the SOW (but not the IGCE) to the
            contractor. The COR then participates, as needed, in negotiations with the
            contractor and CO to ensure a mutual understanding of the work that EPA wants
            the contractor to perform. Based on these negotiations, the COR may revise the
            SOW to reflect changes agreed upon during the meeting. The contractor then
            prepares the work plan. The work plan details the contractor’s approach to
            performing the tasks identified in the SOW, lists the related deliverables,
            estimates the cost to perform the work, and identifies the name and function of
            staff considered key personnel to deliver the work.

            To ensure that the work plan reflects the needs of EPA, the task order COR
            compares the work plan to the SOW and IGCE. Recently, the CO introduced a
            Cost Proposal Evaluation Checklist to assist task order CORs in evaluating work
            plans (see appendix B). As the checklist was introduced after some of the task
            orders were issued, only 6 of the 12 task orders that we reviewed had a completed
            checklist to document the task order COR’s review of the work plan. If the work
            plan is acceptable to the task order COR, the contract-level COR, and the CO, the
            CO issues the task order, attaching both the SOW and work plan. Appendix A
            outlines the best practices for issuing the task order.




13-P-0209                                                                                       5
            Deliverables in SOW and Work Plan Were Not Always Consistent

            When comparing the work plan to the SOW, the task order COR should pay
            particular attention to the deliverables to ensure that Region 9 receives the
            services needed. For six task orders with completed checklists, there were
            differences between the SOW and work plan, including differences in
            deliverables. The task order COR did not document these differences in the
            checklist. Thus, the task order CORs did not ensure that deliverables in the work
            plans were consistent with the deliverables in the SOWs. For the 12 task orders
            reviewed, the SOWs had 120 deliverables and the work plans had 109. The
            deliverables in the SOW and work plan were the same for two task orders. For
            10 task orders, there were differences of 54 deliverables between the SOWs and
            the work plans, as shown in table 2. For example, some of the SOWs included
            deliverables not in the work plan, and some work plans included deliverables not
            in the SOWs. Thus, EPA risks the possibility of (1) needing work that the
            contractor did not perform and/or (2) paying for work that was not essential.

            Table 2: Deliverables in SOWs and work plans differed
                Task order          Number of differences in deliverables
                    7                                 5
                    8                                10
                   17                                18
                   23                                 0
                   40                                 3
                   45                                 1
                   49                                10
                   50                                 1
                   51                                 2
                   53                                 2
                   55                                 0
                   60                                 2
                  Totals                             54
            Source: OIG analysis

            In contrast to EPA’s policy and best practices, the CORs considered the
            documenting of scoping meetings to be optional. However, in some of these
            meetings, the deliverables in the SOW were changed. As a result, the SOW’s list
            of deliverables differed from the lists in the work plan because task order CORs’
            documentation of scoping meetings is discretionary. According to EPA’s CMM,
            CORs must set-up a file system containing all relevant documentation, including
            the basic contract, internal correspondence, technical direction, contract
            deliverables received and reviewed, payment file, and other items that will
            provide an audit trail of the actions on the acquisition.

            EPA’s Records Management policy requires that there should be documentation
            to show a clear picture of how the Agency conducts its business and makes
            decisions. This can include meetings and conference calls where decisions are
            made. EPA’s October 2008 COR training material tells CORs, as a best practice,


13-P-0209                                                                                       6
                 that all meetings must be documented. Further, the COR training material states
                 someone who attended the meeting should prepare minutes and provide a copy to
                 all those who attended. The minutes generally document who attended, the reason
                 for the meeting, discussions, and who will handle action items. Four of the six
                 task order CORs stated that they did not always take scoping meeting notes. Two
                 of these six stated they took notes but could not provide them; one of those two
                 said she destroyed her notes because her office was moving and she believed she
                 no longer needed them.1

                 Some task order CORs and the contract-level COR said that when task order CORs
                 recommended approving the work plan they were accepting that the deliverables
                 reflected EPA’s expectations without actually comparing them to the SOW.
                 However, this is in opposition to the FAR requirement that the SOW must include
                 the description of work performed. In addition, EPA’s suggested best practice has
                 the SOW as the most critical element of the task order. It helps ensure a common
                 understanding of project requirements by the contractor and the government, and
                 assists the COR in monitoring the project and evaluating deliverables.

                 Not all task order CORs used the SOW as the primary document to monitor
                 contract work. One task order COR stated that she used the work plan as the
                 primary document to monitor the expected deliverables because it was the most
                 accurate document after the scoping meeting. Another task order COR stated that
                 he used the SOW in conjunction with the work plan and other documents to
                 monitor expected deliverables. The task order CORs’ practice of using the
                 contractor’s work plan to track progress leaves it at risk of the contractor
                 changing the nature of the agreed-upon contract services. This entails great risk to
                 the government.

                 The EPA Records Management Manual, Chapter 1, states that there should be
                 documentation to show a clear picture of how EPA conducts its business and
                 makes decisions. If task order CORs do not document results of scoping meetings,
                 they are not keeping records that reflect a clear understanding of how EPA agreed
                 to tasks committed to by the contractor. There is no internal control in place for
                 EPA to assure that contractors are committing to agreed-upon tasks delineated in
                 the scoping meetings. EPA, using the SOW, should identify and define the
                 requirements for the goods and services.

Region 9 CORs Did Not Always Review or Document Review of
Qualifications of Contractor Personnel Who Billed EPA
                 Once Region 9 and the contractor agree on the task order work, the contractor
                 must provide qualified staff to perform it. However, the task order CORs did not
                 consistently review the qualifications of contractor staff listed in the work plans.

1
 Two of the CORs included in our sample of eight did not attend scoping meetings because they were appointed
after the task order was issued, to replace the original COR.


13-P-0209                                                                                                      7
            Contract EPS90804 identified the qualifications for each labor category and made
            the contractor responsible for ensuring contract staff met required qualifications.

            For time and materials or labor hour contracts, the FAR states in 52.232-7(a) that
            the hourly rates shall be paid for all labor performed on the contract that meets the
            labor qualifications specified in the contract. It does not identify who must ensure
            the labor meets the specified qualifications, but EPA suggests the COR do so as a
            best practice. According to the COR basic training material, the COR can request
            the contractor to submit resumes outlining the qualifications of staff to perform
            the work.

            Region 9 should improve its review and document as part of the review contractor
            personnel identified on task orders. Four of eight task order CORs, managing four
            task orders, stated they did not review the qualifications of contract staff. The
            remaining four task order CORs, managing eight task orders, stated that they
            reviewed the qualifications of key staff proposed in the work plan. However, the
            CORs we asked did not provide any documentation supporting this claim. The
            CORs lacked documentation of sufficient controls to assure that the contractor
            used qualified personnel to provide the service for which EPA paid.

            Because the Region 9 CORs do not consistently review or document their review
            of qualifications, EPA is relying solely on the contractor to ensure that the
            personnel billed under the contract are qualified to perform agreed-upon tasks.
            Contract EPS90804 requires that individuals billed must meet the qualifications
            for the labor categories specified in the contract. Clause B.3 identifies the
            qualifications for each labor category and requires that the contractor employee
            meet the qualifications set forth in the contract for the labor category. According
            to contract attachment 5, Invoice Preparation Instructions, the face of each
            voucher should contain the following certification: “I certify that all payments
            requested are for appropriate purposes and in accordance with the agreements set
            forth in the contract.” Thus, because the CORs do not consistently review or
            document the review of the qualifications of contractor staff, EPA is
            inappropriately allowing the contractor to determine that its staff met the
            qualifications of the labor categories required to accomplish the work specified in
            the contract. This increases the risk of the contractor substituting lesser-qualified
            staff while EPA pays the rate for fully qualified individuals. In 2009, the OIG
            found that a contractor billed EPA for staff that did not meet the minimum
            qualifications specified in the contract. As a result, OIG recommended that EPA
            disallow the costs of the labor hours charged.

            Review of Contractor Qualifications is Required

            EPA OAM’s Interim Policy Notice issued in September 2010 requires task order
            CORs to verify that billed hours were worked by qualified personnel at the labor
            categories charged. Further, the memorandum appointing the task order CORs
            states that CORs must assure the contractor uses the levels of personnel



13-P-0209                                                                                           8
            contracted for and needed to perform the contractual requirements, and that the
            level of personnel contracted for is not diluted by the excessive use of lower-
            caliber personnel. Additional support for the review of qualifications is listed
            below.

                  FAR Subsection 16.601(a) states the hourly rate means the rate(s)
                   prescribed in the contract for payment for labor that meets the labor
                   category qualifications of a labor category specified in the contract.
                  FAR Subsection 52.232-7(a) states that hourly rates shall be paid for all
                   labor performed on the contract that meets the labor qualifications
                   specified in the contract. Labor hours incurred to perform tasks for which
                   labor qualifications were specified in the contract will not be paid if the
                   work is performed by employees who do not meet the qualifications
                   specified in the contract.
                  The September 2008 EPA COR training materials, Chapters 4 and 6, state
                   that CORs can review résumés of proposed staff for task orders.

            EPA Does Not Believe Verification of Qualifications Is Necessary

            EPA does not enforce the FAR requirement to ensure contract staff meet labor
            qualifications. The OAM Director stated that he is not concerned with the
            education level or amount of experience possessed by any staff member as long as
            they can perform the work required, and if EPA has a policy requiring EPA to
            review credentials of all those working on tasks the requirement needs to be
            changed. The CO believes there are no requirements for EPA to review the
            qualifications of any staff. He also stated that EPA takes the contractor’s word for
            the qualifications of its staff; EPA is not the contractor’s human resource office.
            According to the CO, verifying qualifications of contractor personnel was
            crossing the line into personal services and deemed unnecessary because EPA
            evaluated key personnel during the contract selection process.

            The FAR defines a personal services contract in Subsection 37.104(a); it states a
            personal services contract results in an employer-employee relationship between
            government personnel and the contractor’s employees. A process to ensure
            contract staff meet the qualifications specified in the contract has no connection to
            personnel services. Specifically, checking a sample of the qualifications/résumés
            of the contractor staff satisfies the requirements in FAR Subsection 16.601 that
            the government only pay contractor staff that meet the qualifications specified in
            the contract. This better assures that the government obtained the level of service
            for which it paid. It does not allow EPA contracting personnel to direct the work
            of the contractor’s employees. In fact, reviewing qualifications does not require
            any direct contact between the contractor’s employees and Region 9 task order
            CORs.




13-P-0209                                                                                           9
            Contract Staff Billed Did Not Match Key Contract Staff Proposed

            The contractor did not identify in the work plans most of the individuals who
            were ultimately billed. As shown in table 3, for the 12 task orders reviewed, the
            work plans identified 229 individuals as key staff. However, 46 of these 229
            individuals (20 percent) were never billed. Conversely, the contractor billed for
            1,029 individuals but 846 (82 percent) were not in the work plans. According to
            the CORs, they did not attempt to review the qualifications of the 846 personnel
            not listed in the work plans.

            Table 3: Individuals on work plans did not match those billed
                        Number of key staff on work plan      Number of individuals billed
              Task                                                               Not in
             order          Total            Billed             Total           work plan
               7              17               13                110                97
               8              11               10                88                 78
               17             15               15                148               133
               23             4                4                 102                98
               40             21               17                64                 47
               45             53               49                164               115
               49             10               5                 27                 22
               50             68               53                194               141
               51             6                5                  59                54
               53             10               5                 26                 21
               55             8                2                  17                15
               60             6                5                  30                25
             Totals          229              183               1,029              846
            Source: OIG analysis

            Task order CORs explained that these differences in staffing did not pose a
            concern as such differences are common with large contractors. However, if the
            contractor bills individuals not mentioned in the work plans and the task order
            CORs are unaware of the background of these individuals, Region 9 cannot
            ensure their qualifications comply with the terms of the contract. This increases
            the risk that the contractor is billing the government for work performed by less-
            qualified individuals.

Region 9 Task Order CORs Did Not Always Document Reviews of
Monthly Progress, Contractor Performance, and Quality of Deliverables
            Region 9 did not consistently document the review of monthly progress or the
            quality of deliverables. Although there was a form available to evaluate contractor
            performance on a monthly basis, task order CORs did not use it. Documentation
            on the quality of deliverables varied between task orders. The FAR requires in
            Subsection 16.601 that the government review the contractor’s performance to
            provide reasonable assurance that the contractor is using efficient methods and
            cost controls, and FAR Subsection 46.104 requires that the government must
            document decisions regarding the acceptability of products. EPA guidance and


13-P-0209                                                                                         10
            contract EPS90804 also require that Region 9 have documentation showing that it
            conducted appropriate performance reviews of the contractor. Region 9 could
            better support the reasonableness of the payments to the contractor and the formal
            contractor evaluations with more consistent documentation on the contractor’s
            monthly progress and the quality of deliverables. Further, if a dispute arises
            concerning deliverables, Region 9 would have the documentation needed to
            support its decisions.

            Monthly Progress Reviews Not Documented

            FAR Subsection 46.401(a) requires that quality assurance surveillance plans
            should be prepared in conjunction with the preparation of the statement of work.
            The plans should specify all work requiring surveillance and the method of
            surveillance. Contrary to the requirements in the FAR, no surveillance plan was
            prepared for contract EPS90804. Instead of a surveillance plan, contract
            EPS90804 attachment 8, Award Term Incentive Plan, addressed monitoring
            categories. Attachment 8 briefly described a method of surveillance. The method
            described that formal evaluations will generally be performed annually, but EPA
            will informally evaluate the contractor’s performance on a monthly basis as part
            of the invoice/ status report approval process. However, task order CORs did not
            complete the portion of the invoice approval form that would have documented
            the monthly progress review. Thus, EPA failed to use the tool described in the
            method of surveillance. If an appropriate government surveillance plan had been
            prepared and executed, it would have improved controls for task orders on
            contract EPS90804.

            Contract EPS90804, clause G.2, requires the contractor to submit monthly
            progress reports and invoices. The EPA CMM states that the government must
            document to show appropriate review of contract invoices for cost
            reasonableness. The task order CORs used the Task Order Costs/Hours
            Verification Form to certify that they reviewed the monthly invoice and verify
            that the contractor made sufficient progress to support paying for the work
            performed. The verification form had two sections (see appendix C). The first
            section was the mandatory verification statement mentioned above; the second
            was an optional section to assess contractor’s performance. For the task orders
            reviewed, all the task order CORs filled out the required section for the invoices.

            Most task order CORs did not have documentation on the extent of their review of
            the invoice. The current verification form only requires that the task order CORs
            certify that they reviewed the invoice but does not account for the depth of the
            review. Two of the eight task order CORs who managed six task orders could
            provide documentation, in addition to the verification forms, that they reviewed
            monthly invoices. For example, both of these task order CORs had records
            challenging or suspending amounts invoiced. Other task order CORs stated that
            they reviewed invoices but could not provide documentation. When we




13-P-0209                                                                                         11
            questioned one of these task order CORs about progress and costs invoiced, the
            COR was unable to give explanations showing she understood the invoice.
            Contract EPS90804 attachment 8, Award Term Incentive Plan, stipulated that
            Region 9 will continually monitor the contractor’s performance and will
            informally evaluate the performance monthly. As mentioned before, the
            verification form had an optional portion for the task order CORs to assess
            contractor’s performance. This section covered the quality of services delivered,
            effectiveness of management, and timeliness of performance. For the task orders
            reviewed, none of the task order CORs completed the contractor performance
            section of the verification forms. The CO and a supervisor stated that there have
            been times when EPA made changes to the contractor deliverable reports.

            Every 6 months, the task order CORs are supposed to complete a formal
            evaluation of the contractor’s performance. If task order CORs completed the
            monthly assessment for contractor performance, there would be better support for
            the semi-annual assessment. By not completing the evaluation section of the
            verification form, EPA has missed an opportunity to provide better oversight of
            taxpayer funds.

            Task Order CORs Did Not Consistently Document Their Review of
            the Quality of Deliverables

            Numerous directives require EPA to document that it accepts deliverables. FAR
            Subsection 46.104(c)(2) requires that agencies document decisions regarding the
            acceptability of products. The September 2010 EPA OAM’s An Acquisition
            Guide for Executives requires that program managers identify the deliverables that
            are required for their programs, such as overseeing technical programs and
            inspecting and accepting contract deliverables. “EPA’s focus has traditionally
            been on ensuring funds are obligated…oversight is needed to ensure that funds
            are used for their intended purpose and in accordance with applicable terms and
            regulations (EPA Guidance 2010, p 25).” The appointment memorandum requires
            that task order CORs inspect completed work and/or services, certify acceptance
            or non-acceptance of work, and review and evaluate the contractor’s
            accomplishment of technical objectives. The appointment memorandum requires
            that task order CORs:

                  Inspect completed work and/or services.
                  Certify acceptance or non-acceptance of work.
                  Review and evaluate the contractor’s accomplishment of technical
                   objectives.
                  File (among other things) copies of deliverables, comments on
                   deliverables, and approvals of deliverables.

            The CO stated he relied on task order CORs to review the quality of deliverables, but
            the documentation on the reviews was inconsistent. Six of the 8 task order CORs,
            managing 10 task orders, indicated that they evaluated the quality of the deliverables


13-P-0209                                                                                        12
            for their task orders. However, the documentation supporting these evaluations
            varied. Examples of how the task order CORs documented approval included
            e-mails, the related verification form, a signed approval page in the deliverable, or
            posting the deliverable to the Web page for the site. Two task order CORs, managing
            six task orders, said they sometimes gave oral approval of deliverables.

            Two of the eight task order CORs who managed two different task orders could not
            provide documentation to support that they reviewed the quality of their deliverables.
            When we asked one of these task order CORs how that COR reviewed the quality of
            her task order deliverables, the COR could not provide an answer.

Region 9 Did Not Always Comply With Directives or Best Practices,
or Consistently Issue COR Appointment Memorandums

            The CMM and the appointment memorandums identify the task order CORs’
            responsibilities. The COR training materials identify task order COR best
            practices. The CMM requires that CORs be familiar with the contract terms and
            conditions, and keep a copy of the contract in their files. The memorandums
            require that the CORs:

                Ensure that the contractor complies with the task order statement of work
                  or specifications.
                Assure that the contractor uses the levels of personnel contracted for and
                  necessary for performance of contractual requirements.
                Review contractor invoices and recommend approval/disapproval for
                  payment as appropriate.
                Monitor the task order performance.
                Review and evaluate the contractor’s accomplishment of technical
                  objectives

            The COR training manual tells CORs that as a best practice:

                  When needed, modify the SOW.
                  Review qualifications of contractor staff.
                  Review contractor performance.
                  Review the quality of deliverables.

            Task order CORs not being familiar with contract clauses is counter to the
            directives of the CMM and the appointment memorandum. We found that some
            task order CORs did not read contract EPS90804. They seemed unaware of
            contract clauses such as the requirement in Attachment 8 that EPA will informally
            evaluate contractor performance on a monthly basis.

            In addition, only two task order CORs received appointment memorandums; the
            current CO issued these memorandums. The task orders issued before this CO



13-P-0209                                                                                       13
                started managing the contract did not have appointment memorandums for the
                task order CORs. This illustrates the need for the CO to issue appointment
                memorandums and effectively communicate what is expected of task order CORs
                on a regular basis.2

Conclusion
                Region 9 does not enforce the FAR requirement that contract staff meet labor
                qualifications specified in the contract. Because CORs do not consistently review
                or document the review of contractor staff qualifications, EPA may be allowing
                the contractor to determine that its staff met the qualifications of the labor
                categories required to accomplish the work specified in the contract. This
                increases the risk of the contractor substituting lesser-qualified staff while EPA
                pays the rate for fully qualified individuals. Further, not all task order CORs used
                the SOW as the primary document to monitor contract work. The task order
                CORs’ practice of using the contractor’s work plan to track progress increases the
                risk of the contractor changing the nature of the agreed-upon contract services
                without the CORs knowledge. Also, Region 9 did not consistently document the
                review of monthly progress or the quality of deliverables. Consequently, if a
                dispute arises concerning deliverables, Region 9 may not have the documentation
                needed to support its decisions. Finally, we found that some task order CORs did
                not read contract EPS90804, and CORs not being familiar with contract clauses is
                counter to the directives of the CMM and the appointment memorandum.

Recommendations

                We recommend that the Regional Administrator, Region 9:

                    1. 	 Direct the CO for contract EPS90804 to:

                             a.		 Require that minutes of scoping meetings are prepared, provided to
                                  those who attended, and committed to the official contract file.
                             b.		 Instruct task order CORs to modify the SOW, if needed, to show
                                  changes to which EPA and the contractor agreed in the scoping
                                  meeting.
                             c.		 Instruct task order CORs to continue to complete the Cost Proposal
                                  Evaluation Checklist for each task order and commit it to the
                                  official contract file.
                             d.		 Instruct task order CORs to complete the Task Order Costs/Hours
                                  Verification Form in its entirety, including the contractor
                                  performance evaluation section.
                             e.		 Instruct task order CORs to commit to the official contract file a
                                  record of deliverables received and whether they were acceptable.

2
 FAR Subsection 1.602-2(d)(6) did not require the CO to use appointment memorandums to appoint CORs until
March 16, 2011. However, the EPA CMM required appointment memorandums in 2009.


13-P-0209                                                                                                   14
            We recommend that the Assistant Administrator for Administration and
            Resources Management:

               2.		 Direct OAM to require task order CORs to evaluate the qualifications of
                    contractor key staff proposed by the contractor in the work plan. The task
                    order CORs should also review qualifications for samples of the non-key
                    staff billed on invoices.

Agency Comments and OIG Evaluation
            The Regional Administrator agreed to recommendation 1 and provided a
            timeframe for implementing it. In his comments, the Regional Administrator said
            that the Agency believes that many of the recommendations included in
            chapter 2 of the report have merit and point out opportunities for Region 9 to
            improve the contract oversight being provided by CORs. The region’s response
            on recommendation 1 is complete and the recommendation will be designated as
            open with agreed-to actions pending.

            Regarding recommendation 2, the Assistant Administrator for Administration and
            Resources Management agreed that if the contract contains personnel
            requirements such as required education or years of experience for contractor
            staff, the CO and task order CORs must review and evaluate those qualifications.
            He indicated that Region 9 was no longer using this contracting approach in new
            procurements. OAM would use its balanced scorecard performance management
            and measurement program to determine the need for additional guidance on
            performance based contracting approaches. The balanced scorecard addresses and
            implements solutions to various acquisition planning, evaluation, award, and
            administration issues Agency-wide. We do not have sufficient information to
            determine whether the proposed method meets the intent of our recommendation,
            nor did OAM provide a timeframe for completing it. Therefore, we consider
            recommendation 2 to be unresolved.




13-P-0209                                                                                        15
                                             Chapter 3

       Contract Included a Prohibited Payment Clause
                  Region 9 negotiated a prohibited clause in contract EPS90804 that allowed for
                  paying profit on subcontracts. Paying profit on subcontracts under an indefinite
                  delivery/indefinite quantity contract with time and materials pricing arrangements
                  is duplicative and prohibited by the FAR. As a result, the contractor billed, and
                  EPA paid, over $1.5 million for profit on subcontracts. EPA must take appropriate
                  actions to prevent future payments of duplicative profit on subcontracts.

Paying Profit on Subcontracts Is Prohibited
                  Beginning in February 2007, the FAR prohibited paying profit on subcontracts
                  under time and materials pricing arrangements. FAR Subsection 16.601(b) states
                  that a time and materials contract provides for acquiring supplies or services
                  based on direct labor hours at specified fixed hourly rates that include wages,
                  overhead, general and administrative expenses, profit, and the actual cost of
                  materials (with certain exceptions). “Materials” includes subcontracts. Further,
                  the related clause for payments under time and materials pricing arrangements—
                  FAR Subsection 52.232-7(b)(7)—specifically states that the government will not
                  pay profit or fees to the prime contractor on materials.3 Therefore paying profit to
                  the contractor on subcontracts is inappropriate under time and materials pricing
                  arrangements.

                  As noted in chapter 1, contract EPS90804 is a fixed rate, indefinite
                  delivery/indefinite quantity contract. The indefinite delivery/indefinite quantity
                  requirement gives the government flexibility in both quantities and delivery
                  scheduling of orders. Indefinite delivery contracts may provide for any
                  appropriate cost or pricing arrangement.

                  Besides the above prohibition, profit is also prohibited as a percentage of cost.
                  Paying the cost of the subcontracts plus a percentage of that cost for profit
                  resembles a cost-plus-a-percentage-of-cost contract, which FAR prohibits. FAR
                  Subsection 16.102(c) states: “The cost-plus-a-percentage-of-cost system of
                  contracting shall not be used (citations omitted).”

Contract Inappropriately Allows Paying Profit on Subcontracts
                  Contract EPS90804, clause B.3, contains the pricing schedule for the contract. It
                  requires that Region 9 pay the contractor:
3
 There are two exceptions to not paying profit on subcontracts. They pertain to materials, supplies, and services that
are sold or transferred between any divisions, subdivisions, subsidiaries, or affiliates of the contractor under a
common control. These exceptions do not apply to contract EPS90804.


13-P-0209                                                                                                                16
                  A fixed rate per hour for identified labor categories. 

                  Travel costs.
	
                  Subcontract costs. 

                  Other direct costs.
	
                  Profit of 4.00 percent applicable to subcontracts only. 


            Through April 27, 2012, the contractor billed Region 9 the cumulative amount of
            $38,104,278.36 for subcontracts, plus cumulative profit on the subcontracts of
            $1,524,196.44. Under the terms of the contract, EPA is still liable to the
            contractor for excess profits on work to be completed.

            One plausible reason why the FAR prohibits the profit clause is because it is
            duplicative. The fixed hourly rates paid for the identified labor categories include
            profit. The CO stated that he did not understand the rationale for the clause
            because the Region 9 Acquisition Manager negotiated it when he served as the
            CO. We received conflicting responses from the Region 9 Acquisition Manager
            on this issue.

               	 Initially the Region 9 Acquisition Manager stated that the 4.00 percent
                  was for costs associated with managing the subcontracts and the contract
                  erroneously identified it as subcontract profit. However, this explanation is
                  not consistent with a September 2008 negotiation document he signed. In
                  the document, there was consistent use of the term “profit” regarding the
                  fee to be applied to the cost of subcontracts. In addition, in negotiating this
                  item, the Acquisition Manager used EPAAR Subsection 1515.404-471,
                  EPA structured approach, for developing profit or fee objectives.

               	 After the OIG team’s visit during this review, the Region 9 Acquisition
                  Manager received confirmation from the contractor that the 4.00 percent
                  was profit. The contractor stated it referred to it as a fee. The Region 9
                  Acquisition Manager stated that the contractor’s use of that term confused
                  him and he interpreted the fee as overhead. The agency should have
                  understood that the FAR prohibits both “fees” and “profits.”

               	 The Region 9 Acquisition Manager also stated that remedial action
                  contracts issued by other regional offices might have this clause. However,
                  we found only two other remedial action contracts that were similar in
                  type and date to those issued by Region 4, and they did not include the
                  clause.

            The issue extends beyond contract EPS90804. The Region 9 Acquisition Manager
            signed at least one other contract that included time and materials task orders with
            similar payments for profit. Region 9 awarded remedial action contract EPS90803
            on June 24, 2008, which also provided that the region would pay profit of
            4.00 percent applicable to subcontracts only.


13-P-0209                                                                                           17
EPA Disagrees That the Clause Was Inappropriate or Duplicative
            In August 2012, the Region 9 acquisition staff, the OAM Director, and members
            of his staff disagreed that the 4.00 percent profit on subcontracts allowed by
            contract EPS90804 is duplicative and inappropriate. The Agency stated:

               	 Type of Contract: Contract EPS90804 is not a time and materials contract
                  because they issued task orders with other pricing arrangements under this
                  contract.
               	 Risk in managing subcontracts: The contract requires the contractor to
                  subcontract the construction work. Management of construction is riskier
                  than some other types of architect and engineering services, so the
                  contractor should be entitled to additional profit above that in the fixed
                  hourly rates for managing construction subcontracts. The contractor
                  proposed that EPA compensate them for the increased risk by adding
                  additional profit only on the subcontracts. This might cost EPA less than if
                  the contractor had increased the profit ratio in their fixed rates.
               	 Types of subcontracts: The subcontracts negotiated were often fixed price
                  or firm-fixed rate, and thus the additional 4.00 percent is fixed in a similar
                  manner rather than billed as a percentage of cost.

            Type of Contract

            For the 12 task orders we evaluated, EPA paid the contractor on a time and materials
            basis as allowed by the contract clauses cited below. Since EPA chose to acquire
            these services using a time and materials arrangement, the related limitations apply
            and the contractor is not entitled to additional profit that the FAR prohibits.

               	 Clause B.2 (b) permits the government to order work by using a fixed-
                  price, firm-fixed rate with a cost reimbursement line item for other direct
                  costs, or fixed rate time and materials type task orders.
               	 Clause B.3 meets the definition of time and materials in FAR Section
                  16.601 because it provides for paying the contractor based on direct labor
                  hours at specified fixed hourly rates plus the cost of materials.

            The Director and his staff could not provide FAR references to justify paying the
            additional profit. The Agency stated that the clause in FAR Subsection 52.232-7
            prohibiting the payment of profit on subcontracts was not included in the contract
            and therefore does not apply. That clause was not in the contract, even though the
            FAR requires it in contracts when applicable. FAR Subsection 52.301 provides a
            matrix on the applicability of the clauses and provisions. We disagree that
            excluding the clause from the contract exempts EPA from that requirement. This
            matrix indicates the clause in FAR Subsection 52.232-7 is required when
            applicable for time and materials contracts, and for labor hour contracts. The
            contract contained a clause addressing payments under fixed rate contracts.
            Clause G.3, from EPAAR Subsection 1552.232-73, limits the reimbursement of
            materials to cost. Thus, EPA should prohibit profit on subcontracts under contract


13-P-0209                                                                                          18
            EPS90804 task orders with time and materials pricing arrangements. Further,
            FAR Subsection 16.601 applies even without the payment clause in 52.232-7.

            Risk in Managing Subcontracts

            Regarding whether managing construction subcontracts is riskier than other types
            of architect and engineering services, under a time and materials arrangement, the
            government factors in the risk since the contractor will be paid for the work
            performed at a fixed hourly rate that includes profit. Of the 12 task orders we
            evaluated, task orders 45 and 50 billed the most dollars for subcontracts
            ($16.6 million and $11.5 million, respectively). As required by the statement of
            work, the work plan for task order 45 included the following architect and
            engineering services related to the subcontracts:

            	 Task 3 – Procurement of Subcontract: This subtask includes completing all 

               subcontracting efforts for the Phase II work including pre-bid, award, and 

               post-award activities. 

            	 Task 4 – Management Support: The purpose of this task is to manage and 

               monitor the subcontracts implemented under this task order, and to develop, 

               implement, and document procedures for confirmation that the work 

               activities are performed in accordance with the contract documents. 

            	 Task 5 – Detailed Resident Inspection: The purpose of this subtask is to
               provide field supervision of remedial activities that are scheduled to take
               place under this task order. The remedial activities include construction of the
               disposal cell and pipelines.

            The above tasks show that EPA paid the contractor directly for managing the
            subcontracts. Under task order 45, the contractor billed EPA over $2.5 million for
            labor on the above three tasks. Task order 50 included these same tasks. For task
            order 50, the contractor billed EPA a total of $4.7 million for labor on these three
            tasks. The fixed rates for each of the related labor hours included profit.
            Consequently, the additional 4.00 percent is duplicative.

            Types of Subcontracts

            Region 9 acquisition staff does not believe the 4.00 percent profit resembles the
            prohibited cost-plus-a-percentage-of-cost type of contract. According to them,
            some of the subcontracts negotiated were fixed price. Since these subcontractors
            were not paid on a cost basis, the related 4.00 percent is not cost-plus-a-
            percentage-of-cost. However, the method for determining the price of the
            subcontracts is not pertinent. The pricing arrangement between the contractor and
            its subcontractor could be fixed price, fixed rate, or something else. Whatever it
            was, contract EPS90804 provided for reimbursing the contractor for the actual
            cost. The 4.00 percent profit rate was applied to that amount. Thus, it resembles
            the prohibited cost plus a percentage of cost type of contract.



13-P-0209                                                                                          19
            In response to this review, the OAM Director agreed to have his staff (1) work
            with the Region 9 acquisition staff to assess and possibly restructure how EPA
            will pay the contractor for such work, and (2) determine how EPA paid other
            remedial action contractors for managing construction subcontracts.

Conclusion
            Paying profit to the contractor on subcontracts is inappropriate under time and
            materials pricing arrangements. However, Region 9 negotiated such a clause in
            contract EPS90804. As a result, through April 27, 2012, the contractor billed, and
            EPA paid, over $1.5 million for profit on subcontracts. EPA is liable to the
            contractor for additional profit on work to be completed under this contract.
            Region 9 has at least one other contract (EPS90803) that included time and
            materials task orders with similar payments for profit on subcontracts. EPA
            acquisition staff disagreed that paying profit on subcontracts was inappropriate.
            However, they could not provide FAR references to justify such payments.

Recommendations
            We recommend that the Regional Administrator, Region 9:

               3.		 Direct the CO for contract EPS90804 to:

                       a.		 Remove the profit clause or terminate the contract so that Region 9
                            no longer has to pay profit on subcontracts.
                       b.		 Recover the 4.00 percent profit paid.

               4.		 Coordinate with the EPA OAM to:

                       a.		 Perform an independent review of all current Region 9 contracts
                            with time and materials pricing provisions to determine whether
                            they contain profit payment clauses.
                       b.		 If the review finds these clauses, take appropriate actions to
                            recover the profits paid and remove the clause to prevent such
                            payments in the future.

            We recommend that the Assistant Administrator for Administration and
            Resources Management:

               5.		 Ensure that OAM conducts and documents the results of the review
                    prompted by this evaluation of all remedial action contracts to:

                       a.		 Determine the best method for paying the remedial action
                            contractors for all subcontract management costs.
                       b.		 Consistently apply this method for all remedial action contracts
                            Agency-wide.



13-P-0209                                                                                         20
Agency Comments and OIG Evaluation
            As summarized below and detailed in appendixes D and E, the Regional
            Administrator for Region 9 and Assistant Administrator for Administration and
            Resources Management disagreed that paying additional profit on the
            subcontracts was inappropriate. They proposed alternative corrective actions for
            recommendations 3, 4 and 5. The Regional Administrator also provided technical
            comments, which we include in appendix F, and provided a response.

            Regarding recommendation 3, the Regional Administrator said that both
            Region 9 and the OAM disagree that the profit clause in the contract represents a
            prohibited payment. Thus, termination of the contract or removal of the clause is
            unnecessary and there is no need to recover the amounts paid. However, he
            proposed an alternate action. Future contacts would include a negotiated
            comprehensive set of rates that segregates those specialties associated with
            architectural and engineering services and those associated with construction
            oversight services. Each set of rates can include costs and profits representative of
            the work being conducted. We commend Region 9 for proposing that the terms of
            future contracts address cost and profit differently. However, that does not resolve
            the issues with the current contract. We disagree with the Regional
            Administrator’s position, and consider recommendation 3 unresolved.

            Regarding recommendation 4, the Regional Administrator said that OAM had
            already independently reviewed this contract, similar Region 9 contracts, and
            their clauses before award. OAM also recently performed oversight reviews of
            Region 9 with no findings on these provisions. In reviewing these contracts,
            Region 9 and OAM both considered these provisions to be appropriate. As an
            alternative corrective action, the Regional Administrator proposed that future
            contracts issued by Region 9 would use different pricing arrangements. However,
            according to the Assistant Administrator, both Region 9 and the OAM agree that
            the methodology of applying the 4.00 percent premium negotiated in the subject
            contract for construction management required corrective action. We consider this
            recommendation unresolved.

            Regarding recommendation 5, the Assistant Administrator said that OAM has
            surveyed other similar headquarters and regional contracts and determined that no
            other office is using the pricing methodology associated with this finding. He also
            stated that OAM will use the balanced scorecard process to assess the need for
            additional guidance on adequate file documentation and proper payment
            procedures. The fact that OAM determined that no other office was using this
            pricing methodology casts doubt on the validity of Region 9 applying this
            method. We disagree with the proposed corrective action using the balanced
            scorecard. Our recommendation was to identify the methods currently used to pay
            remedial action contractors for managing subcontracts, determine the best
            practices, and use them throughout EPA. We believe the proposed alternative
            corrective action will not do this, so we consider this recommendation unresolved.


13-P-0209                                                                                           21
                                 Status of Recommendations and
                                   Potential Monetary Benefits
                                                                                                                                POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                              BENEFITS (in $000s)

                                                                                                                    Planned
    Rec.    Page                                                                                                   Completion   Claimed       Agreed-To
    No.      No.                               Subject                              Status1    Action Official        Date      Amount         Amount

     1       14     Direct the CO for contract EPS90804 to:                           O           Regional          9/30/13
                      a. Required that minutes of scoping meetings are                          Administrator,
                         prepared, provided to those who attended, and                            Region 9
                         committed to the official contract file.
                      b. Instruct task order CORs to modify the SOW, if
                         needed, to show changes to which EPA and the
                         contractor agreed in the scoping meeting.
                      c. Instruct task order CORs to continue to complete the
                         Cost Proposal Evaluation Checklist for each task order
                         and commit it to the official contract file.
                      d. Instruct task order CORs to complete the Task Order
                         Costs/Hours Verification Form in its entirety, including
                         the contractor performance evaluation section.
                      e. Instruct task order CORs to commit to the official
                          contract file a record of deliverables received and
                          whether they were acceptable.

     2       15     Direct OAM to require task order CORs to evaluate the             U           Assistant
                    qualifications of contractor key staff proposed by the                     Administrator for
                    contractor in the work plan. The task order CORs should                   Administration and
                    also review qualifications for samples of the non-key staff                  Resources
                    billed on invoices.                                                         Management

     3       20     Direct the CO for contract EPS90804 to:                           U           Regional                          $1,524
                      a. Remove the profit clause or terminate the contract so                  Administrator,
                         that Region 9 no longer has to pay profit on                             Region 9
                         subcontracts.
                      b. Recover the 4.00 percent profit paid.

     4       20     Coordinate with the EPA OAM to:                                   U           Regional
                      a. Perform an independent review of all current Region 9                  Administrator,
                         contracts with time and materials pricing provisions to                  Region 9
                         determine whether they contain profit payment
                         clauses.
                      b. If the review finds these clauses, take appropriate
                         actions to recover the profits paid and remove the
                         clause to prevent such payments in the future.

     5       20     Ensure that OAM conducts and documents the results of the         U           Assistant
                    review prompted by this evaluation of all remedial action                  Administrator for
                    contracts to:                                                             Administration and
                      a. Determine the best method for paying the remedial                       Resources
                         action contractors for all subcontract management                      Management
                         costs.
                      b. Consistently apply this method for all remedial action
                         contracts Agency-wide.



1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is unresolved with resolution efforts in progress




13-P-0209                                                                                                                                    22
                                                                              Appendix A

 Process for Issuing a Task Order Under Contract EPS90804


               • Task order COR prepares the SOW and IGCE.
               • Contract‐level COR and CO review (and change if needed) the SOW and 
                 IGCE.
     EPA       • CO sends the SOW to the contractor.




               • CO, contract‐level CO, and task order COR meet with representatives of 
                 the contractor to discuss the SOW.
   Scoping     • Someone prepares minutes of the meeting and gives the minutes to 
                 those who attended the meeting.
   Meeting


               • If needed, based on the scoping meeting, the task order COR revises 
                 the SOW and IGCE.
               • Contract‐level COR and CO review (and change if needed) the revised 
                 SOW and IGCE.
     EPA       • CO sends the revised SOW to the contractor.




               • The contractor prepares the work plan and sends it to EPA.
 Contractor


               • Task order COR compares the work plan to the SOW and IGCE, and 
                 recommends whether the work plan is acceptable.
               • CO and contract‐level COR review the work plan and the 
                 recommendation of the task order COR, requesting changes from the 
                 contractor if needed.
     EPA       • When satisfied, the CO issues the task order to the contractor.



              Source: OIG analysis



13-P-0209                                                                         23
                                                                                        Appendix B

                     Cost Proposal Evaluation Checklist

Task Order Project Officer:
	
Site Name: 

Task Order Number: 

Cost Proposal Dated: 



1. Addressing the Statement of Work (SOW)

a. Does the Contractor address all tasks outlined    g.  Are proposed staff levels for each task
   in the SOW?                                           reasonable to accomplish the tasks?
   Yes           No (see below)           N/A           Yes             No (see below)             N/A
b. Does the Contractor include any work not          h.  Is a reasonable level of clerical/home office
   required in the SOW?                                  support staff proposed?
   Yes (see below)          No            N/A           Yes             No (see below)             N/A
c. Is the proposed schedule acceptable?              i.  Are appropriate hours proposed for each staff
                                                         level?
   Yes          No (see below)             N/A          Yes             No (see below)             N/A
d.  Is the management structure sound? Is            j.    Is a reasonable budget developed for each
    appropriate QA oversight staff included?               activity?
   Yes          No (see below)             N/A          Yes             No (see below)             N/A
e. Does the technical approach and methodology       k.  Is there enough detail in the WP and budget
   for accomplishing each task appear effective?         structure to support future cost recovery?
   Yes          No (see below)             N/A          Yes             No (see below)             N/A
f. Does the Contractor demonstrate a thorough        l.  If fieldwork is to be done, is preparation of a
    understanding of the task order?                     HASP, QAPP and FSP included?
   Yes          No (see below)             N/A          Yes             No (see below)             N/A

TOPO comments regarding (1) above:

2. Travel

a.   Are the number and length of trips, number of
     travelers, fares, and duration reasonable and
     acceptable?
     Yes           No (see below)            N/A


TOPO comments regarding (2) above:


3. Subcontracting

a.   Are the proposed subcontracting efforts and     b.    Are laboratory services, other than CLP,
     costs reasonable and acceptable?                      appropriate?
     Yes         No (see below)             N/A           Yes          No (see below)            N/A

TOPO comments regarding (3) above:




13-P-0209                                                                                              24
   4. Other Direct Costs

      a.   Do reproduction (production copier) costs         c.   Are Postage and Shipping costs reasonable
           appear reasonable and appropriate?                     and appropriate?
           Yes              No (see below)             N/A        Yes              No (see below)          N/A

      b.   Are proposed material and equipment costs         d.    Government-furnished property is justified,
           reasonable and appropriate?                             where appropriate.
           Yes             No (see below)            N/A          Yes             No (see below)               N/A


   TOPO comments regarding (4) above:

   5. Cost Proposal

      a. Is the Contractor’s total proposed budget           c.    Have the Indirect Rates and Service
      within a reasonable range of the IGCE?                       Center Rates already been negotiated and
                                                                   included in the contract?
           Yes              No (see below)             N/A        Yes              No (see below)             N/A

      b. Is the proposed budget within reasonable
         range of the IGCE for each task?
           Yes              No (see below)             N/A


 TOPO comments regarding (5) above: See Attachment A.


   6. TOPO Recommendation

   I have reviewed the Contractor’s Cost Proposal, and make the following recommendation:

    Cost Proposal is recommended for approval as submitted. The Contractor’s cost proposal adequately
addresses the Statement of Work. Any proposed travel, subcontracting, and other direct costs have been reviewed and
are necessary and reasonable. The proposed budgets are reasonable (see #5 above for discussion regarding cost
reasonableness).

    Cost Proposal is not recommended for approval. Cost Proposal approval is not recommended for the following
reason(s):

    Partial Cost Proposal approval is recommended. The following tasks/subtasks are recommended for approval as
submitted. For these tasks/subtasks recommended for approval, The Contractor’s cost proposal adequately addresses
the Statement of Work. Any proposed travel, subcontracting, and other direct costs have been reviewed and are
necessary and reasonable. The Cost Proposal budgets for these tasks/subtask are reasonable (see #5 above for
discussion regarding cost reasonableness). List tasks/subtasks recommended for approval:

The remaining tasks/subtasks are not recommended for approval for the following reason(s):


      TOPO Signature and Date:



                                      (Submit Completed form to the Project Officer)




  13-P-0209                                                                                                          25
                                                                                                      Appendix C

       TASK ORDER COSTS/HOURS VERIFICATION FORM

Please Return the Forms to (SFD-2) by <<Date>>
Date of Distributing the Monthly Progress Report and Invoice to TOPO: <<Date>>
Contractor:                   Contract No.:                 Period of Performance for This Invoice:
CH2M HILL                     EP-S9-08-04                   «Period of Performance»
Invoice No: «Invoice No»                                    Amount: «Amount Billed»

TOPO: «RPM Name» «Mail Code»                                Contract PO:
TO No.:
«TO No»    Title: «TO Title»                        Site Name: «Site Name»
Please check one of the statements below and provide verification signature. Keep the invoice and monthly report
for your record. Any unreasonable and/or confusing information should be brought to the attention of the
contractor and the Contract Project Officer in a prompt fashion.

   ______ I agree with this invoice. Sufficient progress has been made by the contractor to support payment of
          the work performed.

   ______ Contractor must provide additional justification for verification of costs and/or hours on this task
order.
   ______ Cost listed below should be withheld since they can not be verified.

Comments/Explanation:


Optional Monthly Contractor Performance Evaluation: The minimum acceptable rating is “Good.” The rating
below “Good” or any problem areas indicated below should be addressed immediately by Project Officer and
contractor Program Manager. Please rate each criterion:

        5 – Outstanding       4 – Excellent     3 – Good       2 – Fair     1 – Poor     0 - Unsatisfactory

Quality of Services Delivered       Rating: _______        Effectiveness of Management              Rating:

Initiative in Meeting Contract Requirement                 Timeliness of Performance               Rating: _______
                                 Rating: _______

Cost Control                       Rating: _______         Business Practices                      Rating:

Customer Satisfaction              Rating ________
List Any Positive Feedback or Problem Areas That Need To Be Addressed:

Signature & Date:
I have reviewed the monthly progress and financial reports and verify to the best of my ability the costs incurred.



13-P-0209                                                                                                             26
                                                                                     Appendix D

        Office of Acquisition Management Comments to
                      Recommendations

                 UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
	
                                    WASHINGTON, D.C. 20460
	




                                                                                    OFFICE OF
	
                                                                                  ADMINISTRATION
	
                                                                                  AND RESOURCES
	
                                                                                   MANAGEMENT

MEMORANDUM


SUBJECT:      OAM Response to OIG Draft Report, Improved Management Needed for EPA
              Contract EPS90804 to Address Risk of Misusing Funds

FROM:         Craig E. Hooks, Assistant A d mi nistrato r

TO:           Carolyn Copper
              Assistant I n s p e c t o r General for Program Evaluation

 The Office of Administration and Resources Management appreciates the opportunity to
 review and comment on the December 14, 2012 Office of Inspector General draft report titled
 "Improved Management Needed for EPA Contract EPS90804 to Address Risk of Misusing
 Funds." In order to provide a timely response to the findings and recommendations, Region 9
 is submitting its response separately. However, we have coordinated our responses.

 The report contains a review of contract EPS90804 awarded b y Region 9 in FY 2008. Since
 that time, the Office of Acquisition Management has implemented an oversight a n d compliance
 review program under the EPA Balanced Scorecard Performance Management and Measurement
 Program. This program addresses and implements solutions to various
 acquisition planning, evaluation, award, and administration issues agency-wide.

 Recommendations and Responses r e l a t e d t o OAM:

 Recommendation 2. Direct OAM to require Task Order Contracting Officer Representatives
 (CORs) to evaluate the qualifications of contractor key staff proposed by the contractor in the
 work plan. The Task Order CORs should also review qualifications for samples of the non-key
 staff billed on invoices.

 OAM Response: OAM agrees if the contract contains personnel requirements such as required
 education or years of experience for vendor staff, then Task Order CO's and CORs must review

13-P-0209                                                                                     27
 and evaluate those qualifications. However, OAM does not believe this is the best approach for
	
 managing contract performance. Rather, OAM supports performance based procurement
	
 approaches which require the vendor to identify the labor categories and mix required to ensure
	
 successful contract performance. This approach shifts the risk of contract performance to the
	
 vendor, w h i c h is the intent of performance based contracting and the reason why this approach
	
 is the preferred procurement method. Under this approach, per FAR 7.1 only 


 key personnel are subject to government approval. OAM does not support u s i n g terms and conditions 

 that include qualifications for contractor staff and does not intend to continue this procurement approach.
	
 Furthermore, Region 9 is no longer using this contracting approach in new remediation procurements. 

 However, notwithstanding that this finding results from review of a single contract, OAM will use the 

 BSC PMMP process to determine the need for
	
 additional guidance on performance basedcontracting approaches.
	

 Recommendation 5. Ensure that the OAM conducts and documents the results of the review prompted 

 by this evaluation of all remedial action contracts to:
	

 a. Determine the best method for paying the remedial action contractors for all subcontract
 management costs.

 b. Consistently apply this method for all remedial action contracts agency-wide.

 OAM Response: While both Region 9 and OAM agree that the methodology of applying the
 4% premium negotiated i n the subject contract for construction management required corrective action,
 those costs do not qualify as prohibited payments. Region 9 has already indicated how they will
 appropriately address similar situations for future contracts, as applicable. Additionally, OAM has
 surveyed other similar headquarters and regional contracts and determined that no other office is using
 the pricing methodology associated with this finding. OAM will use the BSC PMMP process to assess
 need for additional guidance on adequate file documentation and proper payment procedures.


 Should you have any questions regarding this response, please contact John Bashista, Director of the
 Office of Acquisition Management, at (202) 546-4310.

 cc: Nanci Gelb, Principal Deputy Assistant Administrator, OARM
 John Bashista, Director, Office of Acquisition Management, OARM
 Raoul Scott, Acting Deputy Director, Office of Acquisition Management, OARM Sandy
 Womack, Audit Follow-up Coordinator, OARM
 Alexander Kramer, Contracting Chief, Region 9
 Arthur Elkins, Jr., Inspector General
 Alan Larsen, Counsel to the Inspector General
 Melissa Heist, Assistant Inspector General for Audit, OIG
 Eileen McMahon, Assistant Inspector General for Congressional, Public Affairs, and
 Management, OIG




13-P-0209                                                                                       28
                                                                                      Appendix E

    Region 9 Comments to Report Recommendations


                    UNITED STATES ENVIRONMENTAL PROTECTION AGENCY 


                                            REGION IX
	

                                         75 Hawthorne Street
	

                                      San Francisco, CA 94105




  MEMORANDUM


  SUBJECT: 	 Response to Office of Inspector General Draft Report No. OPE-FY12-0008
             Improved Management Needed for EPA Contract EPS90804 to Address Risk of
             Misusing Funds

  FROM: 	      Jared Blumenfeld
               Regional Administrator, Region 9

  TO: 	        Carolyn Copper
               Assistant Inspector General for Program Evaluation


  Thank you for the opportunity to respond to the issues and recommendations in the subject
  audit report. Following is a summary of the Agency's overall position, along with its position on
  each of the report recommendations. For those report recommendations with which the
  Agency agrees, we have provided either high-level intended corrective actions and estimated
  completion dates to the extent we can or reasons why we are unable to provide high-level
  intended corrective actions and estimated completion dates at this time. For those report
  recommendations with which the Agency does not agree, we have explained our position and
  proposed alternatives to recommendations. For your consideration, we have included a
  Technical Comments Attachment to supplement this response. We officially request that the
  Technical Comments Attachment be included with the draft report.

   AGENCY'S OVERALL POSITION

  The Agency has reviewed the findings included in the draft report. The Agency believes that
  many of the recommendations included in Chapter 2 of the report have merit and point out
  opportunities for Region 9 to improve the contract oversight being provided by Contracting
  Officer's Representatives (COR). With respect to the findings and recommendations included
  in Chapter 3, the Agency does not concur with the report's assertion that the subcontract profit
  clause represents a prohibited payment. The Agency's reasoning is included in the responses
  below as well as the Technical Comments Attachment.



13-P-0209                                                                                      29
  AGENCY'S RESPONSE TO REPORT RECOMMENDATIONS

 Agreements

  No. Recommendation                       High-Level Intended Corrective          Estimated Completion by
                                           Action(s)                               Quarter and FY
 1.   We recommend that the
      Regional Administrator,
      Region 9, direct the CO for
      contract EPS90804 to
      require that:

            a. Minutes of seeping          a. Minutes will be prepared for 3rd Quarter FY 2013
               meetings are                   each seeping meeting and
               prepared, provided to          provided to participants as
               those who attended,            well as included in the official
               and committed to the           task order file for each order.
               official contract file.
            b. Task Order CORs             b. Task Order CORs will modify
                                              the SOW prior to issuance    4rdQuarter FY 2013
               modify the SOW, if
               needed, to show                with a task order to reflect
               changes to which EPA           any changes agreed upon
               and the contractor             during the seeping meeting
               agreed in the seeping
               meeting.
                                           c. Task Order CORs will continue
            c. Task Order CORs
                                              to complete the Cost Proposal
               continue to complete
                                              Evaluation Checklist for each Already Implemented
               the Cost Proposal
                                              task order and commit it to the
               Evaluation Checklist
                                              official contract file.
               for each task order
               and commit it to the
                                           d. Task Order CORs will be
               official contract file.
                                              required to complete the Task
            d. Task Order CORs
                                              Order Cost/Hours Verification
               complete the Task
                                              Form in its entirety. Should
               Order Costs/Hours
                                              any performance issues arise 4th Quarter FY 2013
               Verification Form in its
                                              they will be noted in the
               entirety, including the
                                              contract performance section
               contractor
                                              and reported to the contract
               performance
                                              level COR.
               evaluation section.
                                           e. Task Order CORs will commit
            e. Task Order CORs                to the official task order file a
               commit to the official         record of deliverables
               contract file a record of      received and whether or not
               deliverables received          they were acceptable.
               and whether they were
               acceptable.                                                        4th Quarter FY 2013




13-P-0209                                                                                           30
  Disagreements
	

  No. Recommendation                Agency Explanation/Response         Proposed Alternative
  3. Direct the CO for contract
      EPS90804 to:

      a. Remove the profit clause a. As noted in the subject draft     a.   In order to avoid future
      or terminate the contract so   report and the Technical               confusion on this issue,
      that Region 9 no longer has    Comments Attachment item               R9 suggests that when
      to pay profit on subcontracts. numbers 6 and 7, R9 and OAM            an audited subcontract
                                     disagree with assertion in the         administration rate or
                                     report that the profit clause          G&A rate is not
                                     included in the contract               available for a particular
                                     represents a prohibited                contractor; that all future
                                     payment. The agency used an            contracts include a
                                     appropriate EPAAR clause               negotiated
                                     1552.232-73 in lieu of the             comprehensive set of
                                     referenced FAR clause 52.232-          rates that segregates
                                     7 which acknowledges a                 those specialties
                                     difference between materials           associated with A&E
                                     subcontracts and separately            services and those
                                     addresses other subcontracted          associated with
                                     efforts. EPAAR 1552.232-               construction oversight
                                     73(b)(2) does not prohibit profit      services. Then each set
                                     from being paid on a                   of rates can include
                                     subcontract. Additionally, these       costs and profits
                                     subcontracts are not                   representative of the
                                     "incidental" services and thus         work being conducted.
                                     do not meet the definition of          If that structure is
                                     materials in FAR 16.601. The           implemented, the
                                     profit clause does not qualify as      current separate profit
                                     cost-plus-percentage-of-cost           clause will no longer be
                                     either for the reasons noted in        necessary.
                                     the report and Technical
                                     Comments Attachment item
                                     number 8. Since the Agency
                                     does not consider the profit
                                     clause a prohibited payment,
                                     termination of the contract or
                                     removal of the clause is
                                     unnecessary.

      b. Recover the 4 percent     b. Since the Agency does not       b. Same alternative as a.
      profit paid.                    consider the profit clause a       above
                                      prohibited payment, there is no
                                      reason to recover the amounts
                                      paid since they represent
                                      legitimate costs.




13-P-0209                                                                                    31
  4.   Coordinate with the EPA
       Office of Acquisition
       Management to:

       a. Perform an independent a.      OAM has already                 a. R9 proposes to issue
       review of all current Region 9    independently reviewed this        any future contracts in
       contracts with time and           contract, similar R9 contracts,    accordance with our
       materials pricing provisions to   and their clauses prior to         alternative 3.a.
       determine whether they            award. OAM has also
       contain profit payment            performed oversight reviews of
       clauses.                          Region 9 recently with no
                                         findings on these provisions of
                                         the contract. In reviewing
                                         these contracts, Region 9 and
                                         OAM have both considered
                                         these provisions to be
                                         appropriate.

       b. If the review finds these
       clauses, take appropriate      b. Since the independent reviews b. Same alternative as a.
       actions to recover the profits    have already been performed      above
       paid and remove the clause        and did not find these clauses
       o prevent such payments in        to be prohibited payments, no
       the future.                       further action is necessary.


  CONTACT INFORMATION

  If you have any questions regarding this response, please contact Alexander Kramer,
  Regional Acquisition Manager in Region 9 at 415-972-3126.

 Attachments:
 Technical Comments


  cc: 	 Nanci Gelb, Principal Deputy Assistant Administrator, OARM

        John Bashista, Director, Office of Acquisition Management, OARM

        Raoul Scott, Acting Deputy Director, Office of Acquisition Management, OARM

        Sandy Womack, Audit Follow-up Coordinator, OARM

        Alexander Kramer, Contracting Chief, Region 9
	

        Kevin Castro, Project Officer, Region 9
	

        Nancy Riveland, Superfund Program Management Section Chief, Region 9

        Nancy Lindsay, Superfund Deputy Director, Region 9

        Janie Thomas, Comptroller, Region 9



13-P-0209                                                                                   32
      Magdalen Mak, Audit Follow-up Coordinator, Region 9

      Arthur Elkins, Jr., Inspector General

      Alan Larsen, Counsel to the Inspector General

      Melissa Heist, Assistant Inspector General for Audit, OIG

      Eileen McMahon, Assistant Inspector General for Congressional, Public Affairs, and

      Management, OIG




13-P-0209                                                                                  33
                                                                                        Appendix F

   Region 9 Technical Comments and OIG Evaluation

Technical Comment #1

Page 5 of the above referenced report states:

"...some task order CORs relied on the contractor-prepared work plan to establish government
objectives and to monitor contractor progress."

Region 9 believes this statement is factually incorrect and confuses the purposes of the SOW and
contractor workplan. Government objectives are not re-established by the contractor. The work plan
provides a greater level detail, but the basic objectives of the project remain the same. It is more
appropriate to think of the documents in different contexts. As a part of a performance based
contract, the SOW outlines the primary objectives and general methodologies for accomplishing
task order requirements. The contractor's work plan provides specific numbers of hours and the
technical approach that will be used to meet the objectives outlined in the SOW. The additional
level of detail in the workplan further supports SOW requirements rather than redefining its
objectives.


OIG Evaluation: The statement in the report is factually correct, i.e., some CORs relied on the
work plan. Specifically, CORs for six task orders relied on the work plans to monitor. Here are
examples of what some of them stated:

   	 The COR relied on the work plan that the contractor produces to capture what was
      discussed in the scoping meeting for the task order.
   	 The SOW is not an accurate documentation of the contracted deliverables so the work
      plan may be different.
   	 The work plan would be one of the ways he would direct the work to be performed. If it
      was signed by the task order COR, that meant it reflected the work expected by the
      Agency.


 Technical Comment #2

Page 6 of the report immediately above the included table states:

"EPA risks the possibility of (1) needing work that the contractor did not perform and (2) paying for
work that was not essential."

Region 9 believes this statement is misleading since the mistakes identified reflect errors in the
administrative process which would have corrected the listed deliverables in the task orders. There
was little real risk to the government in not receiving needed services or paying for additional work
since COR oversight ensured the level of services provided was appropriate.




13-P-0209                                                                                         34
OIG Evaluation: EPA’s documentation does not support this assertion that there was no real
risk. The table in the report shows that there were deliverables in the SOWs that were not in
work plans, which indicates there was work that EPA needed that the contractor did not perform.
In addition, there were work plans that had deliverables that were not in the SOWs, which
indicates there was work that the contractor performed that EPA had not identified as essential.
In the latter case, it appears the contractor is dictating to the government what the government
needs.


Technical Comment #3

The top of the last paragraph on page 7 of the report states:

"The task order CORs' practice of using the contractor's work plan to track progress leaves it at risk
of the contractor changing the nature of the agreed-upon contract services. This entails great risk to
the government.

Region 9 believes this statement is misleading and its assertion of the risk to the government is
inaccurate. Using both the SOW and workplan concurrently does not violate reasonable contract
oversight procedures. When task orders are issued, the workplan is officially incorporated as an
attachment to the order. Region 9's task orders explicitly state that "the work plan,along with any
stated assumptions or caveats, shall not supersede the requirements of this Statement of Work."
However, using both documents helps to mitigate risk by ensuring the COR has adequate
information to perform task order oversight. It is generally expected that CORs would track some
project details based on the contractor workplan because it includes more detailed information on
the contractor's technical approach than the SOW.

OIG Evaluation: We understand that the work plan has more detail than the SOW, and agree
that the SOW and work plan can be used together to oversee contracts. However, the two should
be in agreement. As stated in the report, we found instances where the work plans and SOWs had
different deliverables. See analysis in technical comment 2. Further, some CORs stated they
relied on the work plan and not the SOW to oversee task orders. See analysis in technical
comment 1. When the SOW and work plan disagree, using only the work plan creates the risk
that the government is not getting the services for which the task order was intended.


Technical Comment #4

At the bottom of Page 8, the report states:

"Thus, because the CORs do not verify the qualifications of contractor staff, EPA is inappropriately
allowing the contractor to determine that its staff met the qualifications of the labor categories
required to accomplish the work specified in the contract.

Region 9 believes this statement is inaccurate and misleading. The contract specifically states the
qualifications expected of the individual labor categories utilized. This statement from the contractor
on the invoice is a legal certification on the contractor's behalf that they are providing costs and
personnel in accordance with the contract. EPA has the final approval over all costs claimed. EPA
is not allowing the contractor to substitute its assessment of qualifications since they have already


13-P-0209                                                                                         35
been defined in the contract document. This is a matter of compliance. If the contractor is falsely
certifying the experience of their personnel, that is a matter for the EPA OIG to investigate. False
claims investigations fall outside the purview of individual COR's responsibility and would be more
appropriately handled by auditors and the responsible contractor.

OIG Evaluation: The statement in the report is accurate. Although the CORs could review the
qualifications of those billed under the contract, they have not been directed to do so. The
contract provides that the COR receives an invoice from the contractor and that they have the
right to review, among other things, qualifications of persons billed. Clause B.1 incorporates by
reference FAR clause 52.212-4 Alternate I, which states:

   (4) Access to records. At any time before final payment under this contract, the
   Contracting Officer (or authorized representative) will have access to the following (access
   shall be limited to the listing below unless otherwise agreed to by the Contractor and the
   Contracting Officer):
   (i) Records that verify that the employees whose time has been included in any invoice
   meet the qualifications for the labor categories specified in the contract…

Also, while Region 9 states that the certification on the invoice is sufficient support that
contractor’s qualifications are in accordance with the contract, OAM contradicts this. According 

to the Assistant Administrator’s response to the draft report, OAM contends that if the contract 

contains personnel requirements, task order COs and CORs must evaluate those qualifications. 


Further, the U.S. Government Accountability Office’s Standards for Internal Control in the
Federal Government requires that management must put internal controls in place to ensure
compliance with applicable laws and regulations and to prevent and detect fraud. The OIG’s role
is to conduct audits relating to program operations, not to assume management’s role in
safeguarding government resources. The OIG does not replace the responsibility of EPA’s
program to establish internal controls in their daily operations.
 Technical Comment #5

Towards the bottom of page 9, the report states:

"The CO believes there are no requirements for EPA to review the qualifications of any staff. He also
stated that EPA takes the contractor's word for the qualifications of its staff; EPA is not the
contractor's human resource office. According to the CO, verifying qualifications of contractor
personnel was crossing the line into personal services and deemed unnecessary because EPA
evaluated key personnel during the contract selection process. The OIG finds no support for that
position."

Region 9 asserts that this statement is factually inaccurate and misrepresents statements made by
the CO. The CO did not say there are no requirements for EPA to review the qualifications of any
staff. As noted, the CO referenced the required reviews of personnel resumes in the preaward
selection process. Similar to the response in Technical Comment #5, the CO stated that additional
checks are a matter of compliance. If the contractor is falsely certifying the experience of their
personnel and knowingly providing personnel that do not have the experience required and
identified in the contract, that is a matter for EPA audit and investigation personnel. Systematic false
claims investigations fall outside the purview of standard contract management. Furthermore, if a
COR were to review all resumes beyond a simple matching of qualifications to the labor category



13-P-0209                                                                                          36
definitions- and then tell the contractor which individuals were qualified in their opinion to staff the
task order; COR would essentially be directing the contractor on staffing and employment decisions
which are personal services by definition.


OIG Evaluation: The statement in the report was accurate. We received contradictory
statements from the CO concerning the requirement for CORs to review contractor
qualifications.

    (1) In February 2012, the CO stated there were no requirements to review the qualifications
        of any staff.

    (2) In May 2012, the CO stated that the task order CORs were expected to assure that
        contractor personnel met the qualifications needed to complete the tasks in the task order,
        and would expect that task order CORs request resumes as needed.

As stated in the report, the OIG maintains that having CORs review qualifications does not cross
the line into personal services. The contract clause gives EPA the right to review the contractor's
documentation on qualifications. Similarly, the COR training materials state that CORs can
request qualifications. The report did not suggest that the CORs do more than match the
qualifications of those billed under the contract to the labor category definitions. That would
allow EPA to determine it got the level of services for which it paid. Otherwise, the contractor
determines how much EPA must pay.


 Technical Comment #6

Page 15 of the report states:

"FAR Subsection 16.601(b) states that a time and materials contract provides for acquiring supplies
or services based on direct labor hours at specified fixed hourly rates that include wages, overhead,
general and administrative expenses, profit, and the actual cost of materials. Materials includes
subcontracts. Further, the related clause for payments under Time and Materials pricing'
arrangements-FAR Subsection 52.232-7(b)(7)-specifically states that the government will not pay
profit or fees to the prime contractor on materials."

Under this contract, the labor rates and profit included in pre-negotiated rates are meant to cover the
primary services of the contract which are Architect and Engineering (A&E). EPA has required for
this class of contract that A&E firms subcontract out construction services that are related to the
A&E work performed. The definition in FAR 16.601 "Materials" (2) covers "Subcontracts for supplies
and incidental services for which there is not a labor category specified in the contract." The
referenced report makes the blanket statement that all subcontracts are materials, but the qualifier of
“incidental” is not reflected. As the report notes, $38,104,278.36 was incurred in subcontracts
which, while not a majority, does not necessarily qualify as "incidental" services. Similarly, some of
the labor categories included in the contract would cover the services performed by subcontractors;
however, the Agency has required that the prime contractors use sub contractors for all construction
work. Thus if the services are not "incidental," the classification as materials is incorrect and the
restriction on profit from FAR 52.232-7 is no longer applicable. In that case, the 4% profit on those
subcontracts is not a prohibited payment.




13-P-0209                                                                                           37
At the time of award in an IDIQ contract, there is no reasonable way to estimate the types or number
of construction related requirements; however the A&E contractor is responsible for management of
those construction subcontracts and subcontracts for other services as well. Since EPA has required
that some services be subcontracted, and the requirements cannot be estimated at award, including
a separate profit rate on subcontracts is a legitimate approach. Profit rates may be reasonably
different for services that entail more contractor risk, uncertainty, or different market requirements.
For instance, a construction management contractor is expected to be named on the bond for the
construction being performed. That is a potentially large liability and risk that does not occur with
A&E services. The report incorrectly implies that just allowing for profit on subcontract
administration is enough to mitigate the inherent risks like the example of bond liability that occur in
different services. The 4% negotiated in this case is actually substantially lower than the industry
standard of approximately10% for construction management services.


OIG Evaluation: We disagree. The Regional Administrator asserts that paying 4.00 percent profit on
subcontract costs is acceptable because the subcontracts are not “incidental” services. This is because
(1) the contractor was required to subcontract out construction services, and (2) the value of the
subcontracts exceeds $38 million. Since the subcontracts are not “incidental,” they do not meet the
definition of “material” in FAR 16.601. Thus, the profit on the subcontracts is not a prohibited
payment.

Except for one task order that was fixed price, the task orders issued under contract EPS90804 had
time and material pricing arrangements. Whether “incidental” or not, the only way the contactor
under a time and materials pricing arrangement can be reimbursed is if the subcontracts are billed as
material. The other option, payment at the fixed hourly rate, would not apply. When contract
EPS90804 was awarded, according to clause B.4, the line item for subcontracts was estimated to be
$30 million of the $110 million contract ceiling. Finally, clause B.5(d) includes constructions
services as part of the subcontract line item because it states, in part:

        Specific activities which generally necessitate utilization of the [subcontract] CLIN
        include, but are not limited to: well-drilling, analytical services (when not provided by
        the Government), special consultants to support technical projects or to serve as expert
        witnesses, aerial mapping, surveying, fencing, or construction activities associated
        with a Remedial Action.

The Regional Administrator indicated that EPA required some services to be subcontracted, so
including a separate profit rate on subcontracts is a legitimate approach. He stated that profit rates
may be reasonably different for services that entail more contractor risk, and offered as an example
being named on the bond for construction work performed. Further, according to the Regional
Administrator, the 4.00 percent negotiated in this contract is substantially lower than the industry
standard of approximately 10.00 percent for construction management services.

This position ignores the FAR prohibition on profit under time and material pricing arrangements,
except for the profit in the fixed hourly rates. Thus, an industry standard of 10.00 percent is not
relevant. Also, even if the contractor was concerned about additional risks due to reliance on
subcontractors, a partial remedy may be found in contract clauses H.30 and H.40. These clauses
appear to allow the contractor to shift some of the bond risk to the subcontractors.



13-P-0209                                                                                          38
 Technical Comment #7

At the bottom of page 17, the report states:

"The contract contained a clause addressing payments under fixed rate contracts. Clause G.3, from
EPAAR Subsection 1552.232-73, limits the reimbursement of materials to cost."

R9 used the cited EPAAR clause 1552.232-73 in lieu of the referenced FAR clause 52.232-7. EPAAR
1552.232-73 further acknowledges a difference between materials subcontracts and separately
addresses other subcontracted efforts. EPAAR 1552.232-73(b)(2) does not prohibit profit from being
paid on a subcontract.


OIG Evaluation: We disagree with the statement that EPAAR 1552.232-73(b)(2) does not
prohibit profit from being paid on a subcontract. As stated in the report, this clause limits the
reimbursement of materials to cost only. Thus, it does prohibit profit on subcontracts. Further,
according to FAR 52.201(a), an agency modification of a FAR clause cannot alter the substance
of the clause. Since 52.232-7 prohibits paying a contractor profit on material, EPAAR 1552.232-
73 cannot allow it.

 Technical Comment #8

 At the bottom of page 18, the report states:

"However, the method for determining the price of the subcontracts is not pertinent. The pricing
arrangement between the contractor and its subcontractor could be fixed price, fixed rate, or
something else.Whatever it was, contract EPS90804 provided for reimbursing the contractor for the
actual cost. The 4.00 percent profit rate was applied to that amount. Thus, it resembles the prohibited
cost plus a percentage of cost type of contract."

The statement included above is factually inaccurate and conflates different contract types
erroneously. If a contract is fixed-price or fixed rate, then companies are not being reimbursed on an
actual cost basis. For example,if EPA is charged on a fixed price basis for the installation of
monitoring wells, the contractor is paid the same per well installed whether it takes 10 hours or 40
hours. If the per well cost is $5,000 the cost with the 4% profit is $5,200. The number of wells is
determined by EPA's needs not the prime contractor and the fact remains that the cost to EPA is still
only $5,200 per well regardless of whether it takes 40 hours instead of the expected 10. The
contractor remains incentivized to minimize costs in order to keep below the fixed amount provided.
This is a very different scenario than the prohibited cost-plus percentage-of-cost where contractor
would be incentivized to utilize as many hours and materials as possible since profit increases as
those costs increase. Thus the method for determining the price of the subcontracts is pertinent and
the arrangement in the Contract does not create the incentive that is the reason for the prohibition on
cost-plus-percentage-of-cost type contracts. The two arrangement do not resemble one another.


OIG Evaluation: It is irrelevant what the agreement is between the subcontractor and contractor
in terms of reimbursements. Under this contract, money that the contractor pays to the
subcontractor can be claimed by the contractor as a cost to be reimbursed by EPA. The
additional 4.00 percent gives the contractor incentive to claim services as subcontracts that
would otherwise not be.




13-P-0209                                                                                          39
                                                                               Appendix G

                                   Distribution
Office of the Administrator
Assistant Administrator for Administration and Resources Management
Regional Administrator, Region 9
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Principal Deputy Assistant Administrator, Office of Administration and Resources Management
Deputy Regional Administrator, Region 9
Director, Office of Acquisition Management, Office of Administration and Resources Management
Contracting Chief, Region 9
Audit Follow-Up Coordinator, Office of Administration and Resources Management
Audit Follow-Up Coordinator, Region 9




13-P-0209                                                                             40
